                                                                             Report No. DODIG-2014-034




              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              JA N UA RY 3 1 , 2 0 1 4




                     Followup Audit: Army
                     Discontinued the Concept Next
                     Generation Expanded Capacity
                     Vehicle as Agreed




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                              the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




For more information about whistleblower protection, please see the inside back cover.
                                       Results in Brief
                                       Followup Audit: Army Discontinued the Concept Next
                                       Generation Expanded Capacity Vehicle as Agreed




January 31, 2014

Objective                                              Management Comments
We conducted this followup audit to verify the
                                                       Army officials have taken appropriate actions to address issues
agreed-upon actions for Recommendation B.1.
                                                       with respect to the agreed-upon actions; therefore, we do not
of DoDIG Report No. D-2010-039. Our objective
                                                       require any written response to this report.
was to determine whether the Army discontinued
the Next Generation Expanded Capacity
Vehicle (ECV2) concept program and avoided
spending about $3.84 billion as agreed to in
Recommendation B.1. See Figure 1 for the ECV2
XM 1211 concept model.


Findings
We determined that Army officials discontinued
the ECV2 concept program and avoided spending
about $3.84 billion. Specifically, the Army

   •	 did not procure any ECV2 vehicles beyond          Figure 1. XM1211-Model Up-Armored ECV2
                                                        Source: DoDIG Report No. D-2010-039, “Recapitalization and Acquisition of
      developmental testing;                            Light Tactical Wheeled Vehicles,” January 29, 2010.

   •	 did not include ECV2 vehicles in the
      HMMWV Acquisition and Army Equipment
      Modernization Plans from FY 2010 through
      FY 2013 as part of the Army’s future
      procurement for light tactical vehicles;

   •	 removed the procurement of ECV2
      vehicles from the President Budget, Army
      Procurement Programs for FY 2009
      through FY 2013.




Visit us on the web at www.dodig.mil


                                                                             DODIG-2014-034 (Project No. D2013-D000XD-0197.000) │ i
                                              INSPECTOR GENERAL
                                             DEPARTMENT OF DEFENSE
                                             4800 MARK CENTER DRIVE
                                          ALEXANDRIA, VIRGINIA 22350-1500


                                                                                          January 31, 2014

              MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

              SUBJECT: Followup Audit: Army Discontinued the Concept Next Generation Expanded
              	        Capacity Vehicle as Agreed (Report No. DODIG-2014-034)

              We are providing this final report for your information and use. We performed this audit as
              a followup to the agreed-upon actions for DoDIG Report No. D-2010-039, “Recapitalization
              and Acquisition of Light Tactical Wheeled Vehicles,” Recommendation B.1., to discontinue
              the ECV2 concept program and avoid spending about $3.84 billion. Army officials took
              appropriate actions to address issues with respect to the agreed-upon actions. We considered
              management comments on a discussion draft of this report in preparing the final and revised
              the report as appropriate. No written response to this report is required.

              We appreciate the courtesies extended to the staff.      Please direct questions to me at
              (703) 604-8905 (DSN 664-8905).




              	                                           Amy J. Frontz
              	                                           Principal Assistant Inspector General
              	                                              for Auditing




ii │ DODIG-2014-034
Contents
Objective___________________________________________________________________________________1
Background_______________________________________________________________________________1
Prior Audit Finding B Summary ________________________________________________________________1
Army Agreed-Upon Actions_____________________________________________________________________2

Actions Ending the ECV2 Program ______________________________________2
Appendix___________________________________________________________________________________4
Scope and Methodology_________________________________________________________________________4
     Use of Computer-Processed Data _________________________________________________________4
     Use of Technical Assistance _______________________________________________________________4
     Prior Coverage _ ____________________________________________________________________________4




                                                                                                  DODIG-2014-034 │ iii
                                                                                                   Objective




Objective
Our audit objective was to determine whether the Army discontinued the Next Generation
Expanded Capacity Vehicle (ECV2) program and avoided spending about $3.84 billion
as agreed to in Recommendation B.1 of DoDIG Report No. D-2010-039.



Background
The Army planned to upgrade or replace the High Mobility Multi-Purpose Wheeled
Vehicle (HMMWV). The Army’s HMMWV fleet consists of five different models: the
Command and Control; Armament Carrier; Cargo/Troop Carrier; Tube-Launched,
Optically-Tracked, Wire Command-Link Guided Carrier; and the Ambulance.                   The
Program Executive Officer, Combat Support & Combat Service Support (PEO CS&CSS), is
responsible for managing the HMMWV program. In 2008, the Army selected ECV2
as a developmental vehicle to upgrade the HMMWV fleet and thus created a concept
program to test and develop the prototype ECV2 fleet.

The Army expected ECV2 to restore the performance of the HMMWV and bridge the
capability gap between current HMMWV Expanded Capacity Vehicle models and the
Joint Light Tactical Vehicle—the Army’s future light tactical vehicle. Performance of
the HMMWV was reduced during Operation Iraqi Freedom and Operation Enduring
Freedom due to increased armor protection to meet increasing threats.             The Army
anticipated that production for the ECV2 would begin in FY 2010.


Prior Audit Finding B Summary
DoDIG Report No. D-2010-039 stated that the Project Manager for Tactical Vehicles
planned to acquire 11,500 ECV2s at an estimated cost of $3.84 billion without
establishing the ECV2 concept program as a new start acquisition program, planning to
conduct full and open competition, or determining ECV2’s capabilities compared with
those of current and planned light tactical wheeled vehicles. Furthermore, the Project
Manager for Tactical Vehicles risked procuring a vehicle that duplicated existing capabilities
and had vulnerabilities that othervehicles being procured could mitigate, such as
the   Mine-Resistant    Ambush-Protected,     All-Terrain-Vehicle   and    the   Joint   Light
Tactical Vehicle.

From March 2009 through May 2009, the Army conducted testing of the ECV2 to
assess the vehicles’ readiness for production and applicability to the Army. Following
the tests, the Army determined that the ECV2 did not meet the Army’s improvements
in protection requirements because these vehicles did not have adequate underbody


                                                                                            DODIG-2014-034 │ 1
Objective



                 Improvised Explosive Device protection and had only 30 percent commonality of parts
                 with the current HMMWV fleet.


                 Army Agreed-Upon Actions
                 Recommendation B.1 for DoD IG Report No. D-2010-039 stated that the Assistant
                 Secretary of the Army for Acquisition, Logistics and Technology (ASA[ALT]) in
                 coordination with the commanding General, Army Training and Doctrine Command
                 should analyze the capabilities of currently fielded and future light tactical
                 wheeled vehicles as part of the Joint Capabilities Integration and Development System
                 process to determine need for the ECV2.

                 ASA(ALT) disagreed but decided to take no further action on the ECV2. According to
                 Report No. D-2010-039, the PEO CS&CSS stated that funding set aside for the ECV2
                 would remain in the overall HMMWV budget line. ASA(ALT) also stated that, should
                 the Army revisit the ECV2, the recommendation would be taken under consideration
                 in future acquisition planning. Although the office of the ASA(ALT) disagreed, the prior
                 audit team concluded that the Army had met the intent of the recommendation.



                 Actions Ending the ECV2 Program
                 The Army discontinued the ECV2 concept program and avoided spending about
                 $3.84 billion. This occurred because the Army did not procure any ECV2 vehicles
                 beyond developmental testing. As a result, these funds remained in the HMMWV budget
                 line and allowed the Army to use the funds for other Army programs and expenses.

                 Although the initial HMMWV Acquisition Plan for FY 2010 through FY 2013*1included
                 and anticipated the procurement of ECV2 vehicles, the Army decided not to invest in
                 the ECV2 following the ECV2 testing. As a result, Army officials did not procure any
                 ECV2 vehicles besides those used during prototype testing and in June of 2009
                 subsequently revised the HMMWV Acquisition Plan for FY 2010 through FY 2013 to
                 include only the procurement of current HMMWV Expanded Capacity Vehicle models.
                 The HMMWV Acquisition and Army Equipment Modernization Plans from FY 2010
                 through FY 2013 also did not include ECV2 vehicles as part of the Army’s
                 future procurement for light tactical vehicles.                     Instead these plans and strategies
                 focused on the integration, development, and procurement of the mine-resistant,
                 ambush-protected, all-terrain vehicle and the Joint Light Tactical Vehicle. See Figure 2
                 for the Joint Light Tactical Vehicle.

                 	*	
                       The PEO CS&CSS approved the HMMWV acquisition plan in September 2008.



2 │ DODIG-2014-034
                                                                                                       Objective




Figure 2. Joint Light Tactical Vehicle
Source: http://www.peocscss.army.mil/PdMJLTV.html


           Additionally, Army officials removed the procurement of ECV2 vehicles from the
           President Budget, Army Procurement Programs for FY 2009 through FY 2013. Initially
           the Army included ECV2 vehicles as part of the projected HMMWV procurements for
           FY 2009 through FY 2013.            However, following the ECV2 testing and the Army’s
           decision not to invest in the vehicles, the Army subsequently revised the budgeted
           HMMWV procurements for FY 2009 through FY 2013 to include only current HMMWV
           Expanded Capacity Vehicles. This allowed the Army to use the $3.84 billion for other
           Army programs and expenses.




                                                                                                DODIG-2014-034 │ 3
Appendix



                Appendix
                Scope and Methodology
                We conducted this performance audit from July 2013 through December 2013
                in   accordance     with   generally   accepted   government      auditing   standards.   Those
                standards require that we plan and perform the audit to obtain sufficient, appropriate
                evidence to provide a reasonable basis for our findings and conclusions based on our
                audit objectives.    We believe that the evidence obtained provides a reasonable basis
                for our findings and conclusions based on our audit objectives.

                We interviewed officials from various Army offices such as ASA(ALT), Headquarters
                Department of the Army-G8, and PEO CS&CSS.             We also reviewed the PEO CS&CSS
                acquisition documents, Army budgetary documents, and the HMMWV developmental and
                testing contract for FY 2009 through FY 2013.


                Use of Computer-Processed Data
                We did not use computer-processed data to perform this audit.


                Use of Technical Assistance
                We did not use technical assistance for this audit.


                Prior Coverage
                During the last 5 years, we found 10 audit reports discussing the acquisition of
                light tactical vehicles.      However, we determined that only two DoDIG audit
                reports applied to our audit objective.       Unrestricted DoDIG reports can be accessed
                at www.dodig.mil.

                DoD OIG Report No. D-2011-019, “Live Fire Testing of Light Tactical Wheeled Vehicles
                was Effective for the Portions Completed,” November 24, 2010

                DoD OIG Report No. D-2010-039, “Recapitalization and Acquisition of Light Tactical Wheeled
                Vehicles,” January 29, 2010

                You can obtain information about the Department of Defense Office of Inspector General
                from DoD Directive 5106.01, “Inspector General of the Department of Defense (IG DoD),”
                April 20, 2012; DoD Instruction 7600.02, “Audit Policies,” April 27, 2007; and DoD
                Instruction 7050.03, “Office of the Inspector General of the Department of Defense
                Access to Records and Information,” March 22, 2013. Our website is www.dodig.mil.


4 │ DODIG-2014-034
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                           1.800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
